     DEPARTMENT OF HEALTH & HUMAN SERVICES                         Office of Inspector General

                                                                   Office of Audit Services, Region V
                                                                   233 North Michigan Avenue
                                                                   Suite 1360
                                                                   Chicago, IL 60601



June 15, 2010

Report Number: A-05-09-00097

Michael W. Harty
Managing Director
Strategic Government Initiatives
Blue Cross and Blue Shield Association
225 N. Michigan Avenue
Chicago, IL 60601


Dear Mr. Harty:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Blue Cross Blue Shield Association’s Final
Administrative Cost Proposals for Fiscal Year 2008. We will forward a copy of this report to the
HHS action official noted on the following page.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-09-00097 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2   -   Mr. Michael W. Harty



HHS Action Official:


Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health & Human Services
           OFFICE OF


      INSPECTOR GENERAL






   REVIEW OF BLUE CROSS 

 BLUE SHIELD ASSOCIATION’S


 FINAL ADMINISTRATIVE COST 

    PROPOSAL FOR FISCAL 

         YEAR 2008






                       Daniel R. Levinson


                        Inspector General



                           June 2010


                         A-05-09-00097


                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.


                                       INTRODUCTION 



BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations (contractors).

CMS contracts provide for the reimbursement of allowable administrative costs. In claiming
costs, contractors must follow cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR) and the Medicare contracts. After the close of each fiscal year
(FY), contractors submit to CMS a Final Administrative Cost Proposal (FACP) reporting
Medicare costs. Once CMS accepts an FACP, the contractor and CMS negotiate a final
settlement of allowable administrative costs.

For FY 2008, CMS contracted with Blue Cross Blue Shield Association (BCBSA) to serve as a
Medicare contractor. BCBSA reported Medicare administrative costs totaling $4,386,073 on its
FACP for FY 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that BCBSA claimed on its
FACP were allowable, allocable, and reasonable in accordance with part 31 of the FAR and the
Medicare contract.

Scope

Our review covered the period October 1, 2007, through September 30, 2008 (FY 2008). For
this period, BCBSA reported administrative costs totaling $4,386,073. This total included
postretirement benefits of $120,400 that are the subject of a separate review and, therefore, were
excluded from this audit. We reviewed $4,265,673 of administrative costs.

We reviewed BCBSA’s internal controls for allocating costs in accordance with the cost
objectives specified in the FAR and the Medicare contract. We conducted this analysis to
accomplish our objective and not to provide assurance on the internal control structure.

We conducted fieldwork at BCBSA’s office in Chicago, Illinois, from August 2008 through
February 2009.




                                                1


Methodology

To accomplish our objective, we:

   •		 reviewed applicable Medicare laws, regulations, and guidelines; the applicable section of
       the FAR; and BCBSA’s contract with CMS;

   •		 reviewed the independent auditor’s report for FY 2008;

   •		 reviewed BCBSA internal audit reports for FY 2008;

   •		 reconciled line-item expenses on the cost proposal and cost classification report to the


       contractor’s record of expenses;



   •		 judgmentally selected costs totaling $837,336, and reviewed supporting documentation;

   •		 interviewed BCBSA officials regarding the cost accumulation processes for cost proposal
       and cost allocation systems;

   •		 reviewed established personnel and accounting policies and procedures to determine


       BCBSA’s practices for allocating compensation costs to Medicare;



   •		 reviewed payroll journals, corporate bonus plans, and personnel records; and

   •		 compared top five executives’ compensation to benchmark compensation amounts published
       in the Federal Register, and tested for excessive executive compensation claimed.


We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                                     RESULTS OF REVIEW

Of the $4,386,073 administrative costs that BCBSA claimed on its FACP for FY 2008,
$4,265,673 was allowable, allocable, and reasonable in accordance with the FAR and the
Medicare contract. The remaining $120,400 represents postretirement benefits that we did not
review and that are the subject of a separate review. Consequently, this report contains no
recommendations. We discussed the results of our review with the BCBSA officials.




                                                   2


APPENDIX


 APPENDIX: FINAL ADMINISTRATIVE COST PROPOSAL RECOMMENDED AND 

              ACCEPTED AMOUNTS FOR FISCAL YEAR 2008



The table below details the costs that BCBSA claimed in its cost proposal for FY 2008:

       Element of Cost                        FY 2008

Costs Proposed and Accepted:
       Salaries and Wages                   $2,591,336
       Fringe Benefits                         550,473
       Facilities or Occupancy                 340,015
       EDP Equipment                           225,485
       Subcontracts                                  0
       Outside Prof Service                    191,171
       Telephone & Telegraph                    39,216
       Postage and Express                      35,696
       Furniture and Equipment                  27,049
       Materials and Supplies                   19,286
       Travel                                  109,400
       Return on Investment                      7,740
       Miscellaneous                           128,806
               Subtotal                     $4,265,673

Costs Not Reviewed:
       Post-Retirement Benefit                 120,400

              TOTAL                         $4,386,073
